                                                       Department of the Interior
                                                      Office of Inspector General




                           AUDIT REPORT



                      U.S. Fish and Wildlife Service
                       Federal Assistance Grants
                     Awarded to the State of Hawaii,
               Department of Land and Natural Resources,
                From July 1, 2003, Through June 30, 2005




  Report No. R-GR-FWS-0003-2006                                         January 2007
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                 United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                12030 Sunrise Valley Drive, Suite 230
                                       Reston, Virginia 20191

                                                                                        January 16, 2007

                                       AUDIT REPORT
Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From:       Christina M. Bruner
            Director of External Audits

Subject:    Audit on the U.S. Fish and Wildlife Service Federal Assistance Grants Awarded to
            the State of Hawaii, Department of Land and Natural Resources, From July 1, 2003,
            Through June 30, 2005 (No. R-GR-FWS-0003-2006)

        This audit report presents the results of our audit of costs incurred by the State of Hawaii
(State), Department of Land and Natural Resources (Department) under Federal Assistance
grants from the U.S. Fish and Wildlife Service (FWS). The audit included total reported outlays
of approximately $11.7 million on FWS grants that were open during State fiscal years (SFYs)
ended June 30 of 2004 and 2005 (see Appendix 1). The audit also evaluated Department
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and the reporting of program income.

        We found the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned $9,571 in costs (federal share) and identified
weaknesses in the labor system, asset management system, hunting and fishing license
certification process, and financial management system. In addition, we found that the
Department did not have a Disaster Recovery Plan.

        We provided a draft of the report to FWS and the Department for comment. This report
includes a summary of Department and FWS Region 1 responses after each recommendation, as
well as our comments on the responses. We list the status of the recommendations in
Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
April 16, 2007. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader, Mr.
Tim Horsma, at 916-978-5668 or me at 703-487-5345.

cc:   Regional Director, Region 1, U.S. Fish and Wildlife Service



This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife restoration programs. The Acts allow FWS to reimburse the states up to 75
percent of the eligible costs incurred under the grants. They also specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of the state
fish and game department.

Objectives

Our audit objectives were to determine whether the Department:

      • claimed the costs incurred under Federal Assistance grants in accordance with the Acts
           and related regulations, FWS guidelines, and the grant agreements;

      • used state hunting and fishing license revenues solely for the Department’s fish and
           wildlife program activities; and

      • reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $11.7 million on 35 FWS grants that were
open during SFYs ended June 30 of 2004 and 2005 (see Appendix 1). We performed our audit
at Department headquarters in Honolulu, Hawaii, and visited three branch offices, six wildlife
areas, one fish hatchery, one public fishing area, three motorboat access projects, and one
conservation education facility (see Appendix 2). This audit was performed to supplement, not
replace, the audits required by the Single Audit Act of 1984, as amended and the Office of
Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Accordingly, we tested records and performed other
auditing procedures as we considered necessary under the circumstances. Our tests and
procedures included:



1
    As amended 16 U.S.C. §§ 669 and 777, respectively.

                                                         2
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
    •   examining the evidence that supports selected expenditures charged to the grants by the
        Department;

    •   interviewing Department employees to ensure that personnel costs charged to the grants
        were supportable;

    •   reviewing transactions and supporting documentation related to purchases, other direct
        costs, drawdowns of reimbursements, in-kind contributions, and program income;

    •   conducting site visits to review equipment and other property; and

    •   determining whether the Department used hunting and fishing license revenues solely for
        sport fish and wildlife program purposes.

To the extent possible, we relied on the work of the certified public accounting firm that
performed the SFYs 2004 and 2005 single audits to avoid duplication of audit effort.

We also identified internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions for testing. We did not project the results of tests to the total population of recorded
transactions nor did we evaluate the economy, efficiency, or effectiveness of the Department
operations.

Prior Audit Coverage

On November 12, 2002, we issued Advisory Report No. 2003-E-0003 “Costs Claimed by the
State of Hawaii, Department of Land and Natural Resources, Federal Aid Grants from the U.S.
Fish and Wildlife Service from July 1, 1998 through June 30, 2000.” We followed up on all
significant findings in the advisory report and determined that the Department of Interior, Office
of the Assistant Secretary for Policy, Management, and Budget is tracking two prior audit
recommendations for implementation. Neither recommendation impacted the current audit of
FWS Federal Assistance grants.

We reviewed the Department’s Single Audits for SFYs 2004 and 2005. The Sport Fish
Restoration and Wildlife Restoration Programs were not selected for compliance testing in the
SFY2004 Single Audit but the Wildlife Restoration Program was selected for compliance testing
in the SFY2005 Single Audit. The SFYs 2004 and 2005 Single Audits did not contain any
findings that would directly impact Department FWS Federal Assistance grants.




                                                  3
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                          Audit Results

Audit Summary
We found the Department complied, in general, with select grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance and that state hunting and fishing
license revenues were used solely for the Department’s fish and wildlife program activities.
However, we identified the findings listed below that require attention by the FWS, including
$9,571 in questioned costs. We discuss these findings in more detail in the Findings and
Recommendations section.

        Questioned Costs. We questioned $9,571 in claimed costs (federal share) which were
        not valid obligations of the grant period.

        Unused Equipment Item. The Department claimed expenses for a trailer that was not
        used for grant purposes.

        Labor Charges Allocated Inconsistently. The Department used inconsistent methods
        to allocate grant labor expenditures for sport fish and wildlife restoration grants. In
        addition, the Department did not equitably allocate overtime costs to sport fish restoration
        grants.

        [FOIA Exemption 2-high]

        Duplicate License Holders Not Removed From Certifications. The Department did
        not identify and eliminate duplicate license holders in its annual license certification for
        license years (LYs) 2003 and 2004.

Findings and Recommendations

A.      Questioned Costs – Out-of-Period Costs – $9,571
        The Department claimed costs of $12,761 which were not valid obligations of the grant
        period. Since the grant is based on a 75 percent federal and 25 percent state matching
        cost share, the federal portion questioned is $9,571.

        The Code of Federal Regulations (43 C.F.R. § 12.63(a)) allows a grantee to charge to the
        grant only those costs resulting from obligations of the funding period, when a funding
        period is specified. Section 12.43 defines obligations as transactions, such as orders
        placed and goods and services received, in a given period that require payment by the
        grantee during the same or a future period.

        The Department charged costs outside the grant period because they did not have a
        process in place for identifying and eliminating expenditures which were obligated
        during a prior or subsequent grant. We questioned the $12,761 in costs claimed ($9,571

                                                  4
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
        federal share) that were incurred outside the grant period on grants F-11-D-28 ($5,887),
        F-19-B-35 ($1,670), W-21-HS-28 ($43), W-22-G-10 ($3,580), and W-23-NG-10
        ($1,581).

        Recommendations

        We recommend that FWS:

        1. require the Department to review costs claimed on grants open during SFYs 2004 and
           2005 to determine the extent of additional out-of-period costs included in requests for
           reimbursement,

        2. resolve the $9,571 of questioned costs and any additional amounts of out-of-period
           costs the Department identifies, and

        3. require the Department to implement a process for identifying and eliminating grant
           charges for obligations of prior or subsequent periods.

        Department Response

        The Department stated that purchase orders for all reimbursable expenditure transactions
        in excess of $500 were examined and, if an error in the period charged was obvious or
        possible, the vendor’s invoice was reviewed. It stated that, in total, expenditures
        amounting to $14,229 involving five transactions required an adjustment or allocation to
        FWS grants. It also stated that questioned costs (1) led to a reduction in the grant
        overmatch, (2) were removed from the cumulative total costs of the ongoing grant or (3)
        were returned by crediting a subsequent grant segment. Further, to identify out-of-
        period costs, the Department instructed its divisions to use a previously blank field in the
        accounting system to identify transactions for services that do not match the
        appropriation year charged.

        FWS Response

        FWS concurred with the audit recommendations and added that the Department had
        provided comments to recommendation 1, and support documentation addressing
        recommendations 2 and 3. FWS also stated that any outstanding issues will be addressed
        in the corrective action plan.

        OIG Comments

        While the Department indicated it has taken steps to identify and eliminate grant charges
        for obligations of prior or subsequent periods, additional information is needed in the
        corrective action plan verifying FWS reviewed and accepted the results of the
        Department’s review and their resolution of out-of-period costs claimed for
        reimbursement. The corrective action plan should also include, for actions not yet taken,
        targeted implementation dates and titles of officials responsible for implementation.


                                                  5
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
B.      Unused Equipment Item
        The Department’s Division of Forestry and Wildlife (DOFAW) claimed expenses of
        $12,604 under grant W-22-G-6 for a trailer that was not used for grant purposes.
        Although the grant period was not in the scope of our review, we identified the trailer
        during our site visit equipment review.

        The regulations (50 C.F.R. § 80.18(c)) require that in conducting activities funded under
        the Acts, the state is responsible for the accountability and control of all assets. It must
        assure that the assets serve the purpose for which they were acquired throughout their
        useful life. Title 43 CFR § 12.72 (c)(1) and (4) require that when equipment is no longer
        needed it may be used for other federally supported activity of the grantee; alternatively,
        subject to the approval of the awarding agency, it may be used as a trade in, or sold and
        the proceeds used to offset the cost of the replacement property.

        According to a program official, the 22-foot trailer was purchased to transport a
        tractor/mower for use on wildlife management areas. Due to the size of the trailer, it
        could not be used because moving it required a larger truck than anticipated and staff did
        not possess the required transport license.

        The official also stated that although physical inventories had been performed to verify
        the existence of the equipment, inventory procedures did not focus on verifying that the
        equipment was needed for grant purposes.

        As a result, the trailer was not delivered to the wildlife management areas or utilized for
        grant purposes.

        Recommendations

        We recommend that FWS:

        1. resolve the issue of the equipment item not used for grant W-22-G-6 purposes, and

        2. require the Department to develop and implement policies and procedures related to
           its inventory to ensure that assets serve the purpose for which they were acquired.

        Department Response

        The Department stated that the DOFAW is in the early stages of purchasing a tractor/
        mower. Once that purchase is finalized, the specifications for a trailer can be determined
        and the unused trailer will either be used as a trade-in for the new trailer or sold. It also
        stated that disposal approval from FWS will be requested once the plans become more
        definitive. Further, to ensure that assets serve the purpose for which they were acquired,
        the Department will include a reminder in its instructions for the annual physical
        inventory review.



                                                  6
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
        FWS Response

        FWS concurred with the audit recommendations and added that the Department’s
        proposals to implement the recommendations will be considered in the corrective action
        plan.

        OIG Comments

        The Department indicated it has taken steps to resolve the issue of the unused equipment
        item. It also indicated it has taken steps to develop and implement policies and
        procedures to ensure assets serve the purpose for which they were acquired. However,
        additional information is needed in the corrective action plan verifying FWS reviewed
        and accepted the Department’s proposals, as well as targeted implementation dates and
        titles of officials responsible for implementation.

C.      Labor Charges Allocated Inconsistently

        The Department used inconsistent methods to allocate grant labor expenditures for sport
        fish and wildlife restoration grants. DOFAW used a methodology that included the
        employee’s “actual” hourly rate (wildlife grants) from the State payroll system, while the
        Division of Aquatic Resources (DAR) used a “computed” hourly rate (fisheries grants)
        based on the number of work days in a month. In addition, the Department did not
        equitably allocate overtime costs to sport fish restoration grants.

        The regulations (2 C.F.R. § 225 (which replaces OMB Circular A-87)), Appendix B.8.h.4
        require, in part, that where employees work on multiple activities or cost centers, a
        distribution of their salaries or wages will be supported by personnel activity reports or
        equivalent documentation which reflects after-the-fact distribution of the activity of each
        employee. In addition, Appendix A, Part C, lists factors for determining whether costs
        are allowable. To be allowable under federal awards, costs must be necessary and
        reasonable, allocable and authorized, and adequately documented.

        Federal Assistance grants to the Department were administered by both DOFAW and
        DAR. Both Divisions believed that the methods used to allocate labor costs were
        appropriate. In addition, DAR believed that it was equitable to charge overtime costs of a
        pay period to all activities worked on during that period.

        As a result of the Department’s inconsistent methodology for allocating grant labor
        expenditures, grants would be charged different amounts depending on whether an
        employee worked on a wildlife or sport fish grant. For example, we compared methods
        used by DOFAW and DAR to assess labor charges for seven permanent employees and
        found that the difference in hourly rates varied from 21 to 62 cents.

        The FWS sport fish grants have been charged excessive amounts for labor expenditures.
        The Department allocates overtime to all activity codes charged during the month rather
        than the specific activity on which the overtime was worked. Overtime worked on a non-


                                                  7
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
        FWS project could therefore be allocated, in part, to the FWS grant. For example, we
        reviewed a month of overtime labor charges to grant F-11-D-29 for three employees and
        found that the grant had been overcharged by $1,069 due to the overtime charges.

        Recommendations

        We recommend that FWS require the Department to:

        1. develop a consistent methodology for allocating grant labor expenditures,

        2. determine the extent of excess overtime costs charged to sport fish restoration grants
           for FYs 2004 and 2005 and resolve such instances, and

        3. develop and implement policies and procedures to ensure an equitable allocation of
           overtime costs to sport fish restoration grants.

        Department Response

        The Department stated that effective July 2006, grant payroll allocations for the DAR
        will be done consistently with the method used by the DOFAW. It also stated based on a
        review of two representative months (February and June 2005), it believed that any
        excess overtime costs due to the previous method used was immaterial. Further, the
        Department stated that with the implementation of the timesheet allocation method of the
        DOFAW, overtime charges will be equitably charged.

        FWS Response

        FWS concurred with the audit recommendations and added that the Department had
        submitted a Personal Services Cost Allocation Memo addressing recommendations 1 and
        3, and provided as analysis addressing recommendation 2. FWS also stated that it will
        address any outstanding issues in the corrective action plan.

        OIG Comments

        While the Department indicated it has taken steps to ensure that labor charges are
        allocated consistently, additional information is needed in the corrective action plan
        verifying FWS reviewed and accepted the Department’s methodology for allocating grant
        labor charges and that the policies and procedures implemented ensure an equitable
        allocation of overtime costs to sport fish restoration grants.

D.      [FOIA Exemption 2-high]

        Recommendation

        [FOIA Exemption 2-high]



                                                  8
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
        Department Response

        [FOIA Exemption 2-high]

        FWS Response

        [FOIA Exemption 2-high]

        OIG Comments

        [FOIA Exemption 2-high]

E.      Duplicate License Holders Not Removed From Certification

        FWS requires states to report the number of hunting and fishing license holders and
        certify the accuracy of their counts. The Department did not identify and eliminate
        duplicate license holders in its annual license certification for LYs 2003 and 2004.
        Inclusion of duplicate license holders may have resulted in an inaccurate number of
        licenses certified by the Department for LYs 2003 and 2004.

        The regulations (50 C.F.R. § 80.10 (c)(5)) state that an individual shall not be counted
        more than once as a hunting or fishing license holder. The state is responsible for
        certifying that it eliminated duplications.

        The Department’s procedures for determining the total number of licenses sold did not
        include procedures to identify and eliminate duplicate sales. Instead, the Department
        relied exclusively on end-of-year sales reports from the license sales database to generate
        sales and revenue data for the annual certification. The information in the report was
        insufficient to eliminate duplicate sales because it generated only gross sales and revenue
        data for all license types sold during the license year. The only adjustment that was made
        to the sales data was the elimination of senior hunting and fishing license types from the
        final certification.

        FWS bases its apportionment of grant funds, in part, on the number of license holders.
        Although some states receive no less than a minimum apportionment, accurate license
        certifications are necessary to compute properly each state’s apportionment.

        Recommendation

        We recommend that FWS require the Department to develop and implement a
        methodology to eliminate duplicate license holders in its annual license certifications.




                                                  9
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
        Department Response

        The Department stated that it had developed a procedure to retrieve data from license
        holder databases and identify duplicate holders, and that this procedure would result in a
        more accurate certification.

        FWS Response

        FWS concurred with the audit recommendation and stated that the Department had
        submitted proposals which would be considered in the corrective action plan.

        OIG Comments

        While the Department indicated it has taken steps to develop a methodology to eliminate
        duplicate license holders in its annual license certification, additional information is
        needed in the corrective action plan verifying FWS reviewed and accepted the
        Department’s plan for ensuring the accuracy of the license certifications. The corrective
        action plan should also include targeted implementation dates and titles of officials
        responsible for implementation.




                                                  10
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                                                           Appendix 1

              HAWAII DEPARTMENT OF LAND AND NATURAL RESOURCES
                           FINANCIAL SUMMARY OF REVIEW COVERAGE
                               July 1, 2003 through June 30, 2005

Grant Number         Grant Amount        Reported Outlays        Questioned Costs        Federal Share
F-11-D-28                  $348,000              $382,776                 $5,887               $4,415
F-11-D-29                   348,000                353,154
F-12-D-28                   883,334                811,570
F-12-D-29                   891,834                838,419
F-13-C-28                    45,000                 46,056
F-13-C-29                    47,000                 61,023
F-14-R-28                   403,000                471,342
F-14-R-29                   403,000                413,253
F-15-T-28                    32,000                 14,368
F-15-T-29                    32,000                 32,660
F-16-T-28                    80,000                 80,049
F-16-T-29                    80,000                 86,472
F-17-R-28                 1,064,000                840,195
F-17-R-29                 1,109,000                878,410
F-18-AE-17                  240,000                294,189
F-18-AE-18                  240,000                297,821
F-19-B-27                   360,000                128,580
F-19-B-28                   350,000                      0
F-19-B-29                   200,000                 99,300
F-19-B-31                   260,000                 81,500
F-19-B-32                 1,100,000              1,176,843
F-19-B-33                   250,000                193,741
F-19-B-34                    60,000                 19,210
F-19-B-35                   130,000                 45,445                 1,670                 1,252
F-19-B-36                    80,000                      0
F-19-B-37                    28,000                 24,455
F-19-B-38                    60,000                      0
FW-1-DE-1                 1,147,000                 86,744
W-21-HS-27                  900,598                719,542
W-21-HS-28                  544,500                413,091                    43                    32
W-22-G-8                    813,196                859,589
W-22-G-9                    813,797                814,956
W-22-G-10                   813,997                516,643                 3,580                 2,685
W-23-NG-9                   284,806                394,294
W-23-NG-10                  286,878                260,778                1,581                 1,186
TOTAL                   $14,728,940            $11,736,468              $12,761                $9,571



                                                  11
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                                                           Appendix 2

              HAWAII DEPARTMENT OF LAND AND NATURAL RESOURCES
                                             SITES VISITED

                                        Headquarters
                   Department of Land and Natural Resources, Honolulu, Hawaii


                                          Branch Offices
                                  Hawaii (East) Branch Office, Hilo
                               Hawaii (West) Branch Office, Kamuela
                                    Maui Branch Office, Wailuku


                              Wildlife Management Areas / Facilities
                                      Waiakea Forest Reserve
                                   Kipuka Ainahou Nene Sanctuary
                                   Kaohe Game Management Area
                                Puu Anahulu Game Management Area
                                          Kula Forest Reserve
                                   Kahaha Pond Wildlife Sanctuary


                              Fish Hatchery and Public Fishing Area
                                  Wailoa Fisheries Research Station
                                     Waiakea Public Fishing Area



                          Motor Boat Access and Conservation Projects
                           Pohoiki Boat Ramp and Loading Dock, Hilo
                                  Manele Small Boat Harbor, Lanai
                                Kahului Boat Launch Facility, Kahului
                              Conservation Education Facility, Waimea




                                                  12
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                                                           Appendix 3

                                   HAWAII
                DEPARTMENT OF LAND AND NATURAL RESOURCES
               STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


        Recommendations                            Status                       Action Required

 A.1, A.2, A.3, B.1, B.2, C.1,        FWS management concurs              Provide a corrective action
 C.2, C.3, D.1, and E.1               with the recommendations,           plan that identifies the
                                      but additional information is       actions taken or planned to
                                      needed as outlined in the           resolve and implement the
                                      “Actions Required” column.          recommendations. The
                                                                          plan should also include the
                                                                          targeted completion dates
                                                                          and the titles of officials
                                                                          responsible for
                                                                          implementation of each
                                                                          recommendation, as well as
                                                                          verification that FWS
                                                                          reviewed and approved of
                                                                          actions taken or planned by
                                                                          the state to implement the
                                                                          recommendations. Any
                                                                          recommendations that are
                                                                          not implemented at the end
                                                                          of 90 days (after April 16,
                                                                          2007) will be referred to the
                                                                          Assistant Secretary for
                                                                          Policy, Management and
                                                                          Budget for resolution
                                                                          and/or tracking of
                                                                          implementation.




                                                  13
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
